                    September 30, 1999

                    PAM GIBERT
                    VICE PRESIDENT, RETAIL

                    SUBJECT: Review of the Revamped Sales and Services
                             Associate Training Program (RG-MA-99-006)

                    In March 1999 the Office of Inspector General (OIG)
                    initiated a review of the Revamped Sales and Services
                    Associate Training Program (99RR008RG000). This report
                    represents a proactive review of the ongoing program at the
                    request of the Vice President of Retail. This program was
                    initiated in October 1996 and piloted in five districts,
                    beginning in May 1999. The program is scheduled for
                    national rollout in January 2000. The following sections
                    provide specific information on our review of the program
                    and highlight our observations and suggestions for
                    improvement.

Results in Brief	   The Retail and Corporate Employee Development staff
                    have made substantial progress in successfully
                    implementing this pilot program. Our review of the
                    revamped program identified five conditions that warrant the
                    continued attention of the Retail Workforce Strategies
                    Team. The conditions are in the areas of consistency and
                    completeness of:

                    •	 Training Presentations,
                    •	 Reference Materials,
                    •	 Image to the Public,
                    •	 Instructors’ Knowledge of United States Postal Service
                       (USPS) Products and Services, and
                    •	 Overall Management and Control of Training.

                    This report provides observations, along with the details of
                    our review, and 18 suggestions to improve and strengthen
                    the Revamped Sales and Services Associate Training
                    Program. Implementation of these suggestions will help


                             Restricted Information
Review of the Revamped Sales and                                                  RG-MA-99-006
 Services Associate Training Program


                             ensure that effective internal controls are in place and
                             enforced before future training courses or a national rollout
                             of the revamped program occurs.

                             Management’s actions planned or taken satisfy the intent of
                             17 of the 18 suggestions in the report. We agreed with
                             management that one suggestion was outside of the scope
                             of the training program. We will consider the area covered
                             by the suggestion in future audit plans.

                             The Vice President, Retail, stated that the proactive nature
                             of this review was helpful in giving Retail another "set of
                             eyes and ears" during actual training sessions with the pilot.
                             She found OIG findings to be consistent with the
                             observations of Retail, Corporate Employee Development,
                             and the American Postal Workers Union. Additionally, she
                             stated that this review validates her reason for requesting
                             an objective analysis and recommendation by the OIG.

Background 	                 The USPS made investments in improving locations;
                             providing positive and friendly work atmospheres; improving
                             the quality and variety of products and services; and
                             deploying Point-of-Service ONE equipment to post offices.
                             Additionally, the effort to revise the training program focuses
                             on one of the Retail's most important assets, its people.
                             Training clerks in this new retail environment helps the
                             USPS realize a greater return on these investments and
                             look forward to increased success in its competitive market.

                             In October 1996 the Retail staff began their efforts to
                             revamp the outdated retail clerk training program. In these
                             efforts, the Retail staff reviewed selection techniques,
                             indicators for success, job descriptions, and training
                             methods and materials. Additionally, the staff benchmarked
                             with major retail companies and included advice from the
                             American Postal Workers Union, which represents the retail
                             clerks. The staff also sought advice from the National Retail
                             Federation in developing qualification standards for the
                             program.

                             Each day, over 7 million customers visit Postal Service retail
                             locations and generate approximately $16 billion annually in
                             walk-in sales, accounting for about 25 percent of all Postal
                             Service revenue. To better serve customers, the Retail and




                                                  2
                                       Restricted Information
Review of the Revamped Sales and                                                   RG-MA-99-006
 Services Associate Training Program


                             Corporate Employee Development staffs have developed a
                             new pilot program, which is a revision of the training
                             program used since 1988. The revamped program was
                             primarily designed to enable retail clerks to better serve
                             Postal Service customers and ensure consistent customer
                             service nationwide. Another objective of the program was
                             to change the retail clerks’ perception of their role from that
                             of an “order taker” to that of a “service provider.”

                             Training pilots are underway in the Atlanta, New York,
                             Northland, Oklahoma City, and Portland Districts.
                             Management is presently on schedule to finalize the overall
                             program and initiate national training rollout in
                             January 2000.

                             Selections for a retail clerk position were previously based
                             on seniority, a technical test score, and a subjective
                             assessment by a supervisor. Many clerk positions were
                             filled by mail processing staff, who supported operations
                             and possessed an average of 15 years of experience. The
                             selection process did not focus on or require previous retail
                             experience, sales skills, or interpersonal skills. Also,
                             financial compliance and operations generally received a
                             greater emphasis than helpful, timely customer service.
                             Most retail clerks and supervisors also have mail processing
                             responsibilities that often take precedence over retail unit
                             operations and management.

                             The revamped method for selecting retail clerks is designed
                             to include rating applicants using an interpersonal skills test.
                             The test is based on previous validation studies that show
                             predictors of performance. It is currently being validated for
                             its effectiveness and use in this program. Efforts to change
                             the perceived role of retail clerks include changing the
                             position title to Sales and Services Associate. The training
                             course is now designed for new hires, part-time/flexible
                             employees, and employees working in non-retail positions
                             within the Postal Service.

                             A known weakness of the previous training approach was
                             that clerks received too much information in the classroom
                             to retain. Clerks received two weeks of classroom training
                             that covered every main function of the position, followed by
                             one week of unstructured on-the-job training. The new
                             program consists of one week of classroom training and



                                                  3
                                       Restricted Information
Review of the Revamped Sales and                                                   RG-MA-99-006
 Services Associate Training Program


                             another week of structured on-the-job training. The
                             structured on-the-job training is a key component of the new
                             training approach that focuses on product information and
                             sales. The new classroom training also includes an
                             emphasis on customer relations and projecting a courteous,
                             professional image. With the changing role of the retail
                             clerks in the Postal Service, clerks are now required to offer
                             more effective customer service to include offering and
                             selling additional products and services.

                             To facilitate retail operations, a new Point-of-Service ONE
                             system, currently under deployment, was developed to
                             provide customers and retail employees with vastly
                             improved and more timely information about available
                             USPS services. The equipment is designed to encourage
                             selling by prompting clerks to offer the customer choices
                             and best-value services, provide standardization of
                             processes, and allow immediate access to all postal options
                             and costs, thus enabling quick, informed decisions. The
                             equipment also features on-line verification and
                             authorization of debit or credit cards, and improved
                             inventory management. Point-of-Service ONE training was
                             to be included in the retail clerks’ classroom training in
                             districts where Point-of-Service ONE has been deployed.
                             However, if deployment occurs in the district at a later date,
                             the clerks were to be trained on Integrated Retail Terminals,
                             the equipment currently used in most post offices.

Scope, Objectives,           The scope of our review covered the ongoing efforts to
And Methodology              revise the Sales and Services Associate Training Program.
                             We focused on whether the revamped training program
                             achieves the goals of Retail. Some of these goals include:
                             mirroring successful business practices such as “upselling”
                             and consistent branding; changing the perceived role of
                             retail clerks from that of an “order-taker” to a “service
                             provider”; improving product knowledge of retail clerks;
                             enhancing customer service; and implementing consistent
                             retail clerk training nationwide in order to improve the ability
                             of the USPS to compete. The OIG also reviewed the
                             coordination of this program with the Point-of-Service ONE
                             training program.

                             Because the Sales and Services Associate Training
                             Program is currently in the developmental stage, we
                             reported the results of our review as observations and are



                                                  4
                                       Restricted Information
Review of the Revamped Sales and                                                   RG-MA-99-006
 Services Associate Training Program


                             making suggestions to Retail to strengthen program
                             processes and management controls. Our independent
                             review was performed as a proactive effort to assist Retail
                             management in their efforts to refine the revamped training
                             program for future Postal Service retail clerks. We did not
                             review the cost-benefit or overall effectiveness of the
                             revamped training program.

                             The pilot was initiated in May 1999 in the New York,
                             Northland, Oklahoma City, and Portland Districts. In
                             June 1999, the pilot began in the Atlanta District. Initiation
                             followed a two and a half-year research and planning effort
                             that culminated in the revision of the classroom course, the
                             qualifying examination, and the development of a structured
                             on-the-job training segment.

                             We visited four of the five pilot sites. We observed
                             classroom training at two locations and structured on-the-
                             job training at three locations. We also examined the Sales
                             and Services Associate Training Program Strategic Plan.
                             Our examination of training materials included reviewing
                             employee manuals, training manuals, structured on-the-job
                             training lessons, and reference tools. We interviewed
                             Headquarters and field Postal Service staff responsible for
                             administering the classroom and structured on-the-job
                             training pilots. During the training, we also met with Union
                             representatives, Postmasters, Station and Finance
                             Managers, and trainees. Additionally, we observed the Job
                             Instructor Training Program for this pilot and reviewed the
                             printed version of the new Retail Supervisor Training
                             Program designed to assist supervisors in communicating
                             with clerks, creating the steps needed to set expectations
                             for clerks. This training is currently being designed to
                             reinforce other retail training efforts and is anticipated to be
                             available in the year 2000.

                             This review was conducted from March 1999 through
                             August 1999, in accordance with the President's Council on
                             Integrity and Efficiency, Quality Standards for Inspections.
                             We discussed our observations and suggestions with
                             appropriate management officials during the course of our
                             review and have included their comments where
                             appropriate.




                                                  5
                                       Restricted Information
Review of the Revamped Sales and                                                  RG-MA-99-006
 Services Associate Training Program


Observations and             Our review identified five conditions that warrant the
Suggestions                  continued review and emphasis of Retail and Corporate
                             Employee Development. The conditions are in the areas of
                             the consistency and completeness of:

                             1. Training Presentations,
                             2. Reference Materials,
                             3. Image to the Public,
                             4. Instructors’ Knowledge of USPS Products and Services,
                                and
                             5. Overall Management and Control of Training.

                             In general, all four locations observed achieved some
                             success, particularly in the areas of uniform image,
                             knowledge of Postal Service programs, and management
                             and control of the training program. The following chart
                             summarizes the areas in which improvements can be made.

                                              AREAS FOR IMPROVEMENT
                                              Conditions   Locations
                                                         A B C D
                                                 1       X X     X   X
                                                 2       X X     X   X
                                                 3       X X     X
                                                 4          X    X   X
                                                 5       X X     X   X

Training                     Training presentations varied in terms of structured on-the-
Presentations                job course approach and content, which affects the quality
                             of information, provided to the clerks and impacts their
                             ability to effectively serve customers.

                             At three of the four pilot training locations visited, the OIG
                             reviewed the revamped on-the-job training course approach
                             for consistency, and found significant variations. At
                             Location D, we found that the structured on-the-job
                             instruction generally adhered to the design of the training.
                             However, at Locations A and C, the structured on-the-job
                             instruction provided closely resembled the previous method
                             of training. The OIG did not observe structured on-the-job
                             instruction at Location B.

                             The previous method of training consisted of experienced
                             retail clerks working beside a trainee, with the trainee asking
                             questions as needed. The new method of training is more



                                                  6
                                       Restricted Information
Review of the Revamped Sales and                                                  RG-MA-99-006
 Services Associate Training Program


                             At three of the four pilot training locations visited, the OIG
                             reviewed the revamped on-the-job training course approach
                             for consistency, and found significant variations. At
                             Location D, we found that the structured on-the-job
                             instruction generally adhered to the design of the training.
                             However, at Locations A and C, the structured on-the-job
                             instruction provided closely resembled the previous method
                             of training. The OIG did not observe structured on-the-job
                             instruction at Location B.

                             The previous method of training consisted of experienced
                             retail clerks working beside a trainee, with the trainee asking
                             questions as needed. The new method of training is more
                             structured, in that, it consists of 80 structured lessons, 32 on
                             which clerks must be certified. The instructor is supposed
                             to demonstrate and explain how to perform a transaction.
                             The trainee then performs the process for the instructor in
                             order to exhibit understanding. This approach then requires
                             the trainee to wait on customers and provide customer
                             service. If the trainee is not able to perform the lesson tasks
                             by waiting on customers, the instructor administers the
                             lessons by role-playing with the trainee.

                             At Location C, instead of waiting on customers, a trainee
                             worked beside experienced clerks and asked questions only
                             when needed. At Location A, neither instructor used the
                             pilot program method of conducting structured on-the-job
                             instruction and both used outdated trainee certification
                             forms for training sessions. At Location D, classroom
                             instructors emphasized that while the information outlined in
                             the training modules was correct, they explained that they
                             used different procedures in their district.

                             Implementing consistent training ensures that clerks receive
                             accurate information, which enables them to offer products
                             and services to the public that best serve customer needs.

Suggestion                   The Vice President, Retail, should:

                             1.	 Require instructors to adhere to guidelines in the new
                                 pilot program method of conducting structured on-the-
                                 job training, and use the revised evaluation forms.

Management's                 Management agreed with the suggestion, and officials have
Comments                     conducted midpoint briefings with District Managers and



                                                  7
                                       Restricted Information
Review of the Revamped Sales and                                                 RG-MA-99-006
 Services Associate Training Program


                             Managers of Human Resources, Marketing, Retail, Training,
                             and post office operations to review pilot results and
                             feedback. The Retail Workforce Strategies Team learned
                             that in many cases instructors were not encouraged or
                             permitted to adhere to guidelines. During these briefings
                             adherence to design was emphasized and suggestions
                             were solicited for solutions concerning valid operational
                             constraints. Where these suggestions were appropriate,
                             they have been incorporated into the program's design.
                             Additionally, the Retail Workforce Strategies Team has:

                             •	 documented and instituted a comprehensive
                                management instruction that outlines policies,
                                procedures, and responsibilities for the administration of
                                this program; and
                             •	 developed an Administrator's Guide that provides more
                                detailed instructions.

Evaluation of                The implemented actions by the Retail Workforce Strategies
Management's                 Team satisfied the intent of the OIG suggestion.
Comments




                                                  8
                                       Restricted Information
Review of the Revamped Sales and                                                    RG-MA-99-006
 Services Associate Training Program



Training Length And          Modifications of training length and schedules caused
Schedules                    confusion among trainees and incomplete coverage of
                             program information.

                             At the four locations where training was observed, the
                             instructors modified the training schedule, which deviated
                             from Retail's objective of training consistency and caused
                             the trainees to receive incomplete product and service
                             information.

                             At Location A, instructors modified the training structure by
                             having trainees spend their first two days of structured on-
                             the-job instruction role-playing the first 32 critical lessons in
                             the classroom, instead of at their Postal stations. Trainees
                             at this location also spent their third day of structured on-
                             the-job training observing the instructors’ work at the
                             window, instead of serving customers and implementing
                             lessons.

                             At Location C, an on-the-job instructor did not complete the
                             required 32 critical processes within the week provided for
                             the structured on-the-job instruction. This resulted in the
                             trainee requiring additional training time to complete the
                             required processes.

                             At the same location, both trainees observed by the OIG
                             trained at stations other than their own. At Location A, only
                             one of the two trainees observed was required to perform
                             structured on-the-job training at a location other than her
                             own post office. Additionally, at Location D, students were
                             required to perform structured on-the-job training at other
                             locations, some travelling extensive distances. Two
                             essential reasons for clerks to receive training in their own
                             locations are to ensure clerks are familiar with the unique
                             services and products offered in their stations, and to
                             ensure clerks are familiar with their station’s design and
                             station-related procedures.

                             At Locations B and D, course schedules were either not
                             designed or not followed by classroom instructors. At
                             Location D, classroom instructors seemed confused about
                             suggested timeframes for modules. In several instances,
                             they followed timeframes precisely, while in other instances,
                             they completed modules in half as much or much longer



                                                  9
                                       Restricted Information
Review of the Revamped Sales and                                                   RG-MA-99-006
 Services Associate Training Program


                             than the suggested time. At this same location, the
                             instructors skipped some exercises, yet at other times
                             seemed very concerned and anxious about “following the
                             script.” This resulted in deviations from the suggested
                             timeframes, creating confusion among the students and a
                             lack of consistency in training from district to district.

                             At Locations A and D, the on-the-job instructors observed
                             had prior teaching experience, and seemed more
                             comfortable with the training. At Location C, a first-time
                             instructor appeared unprepared for and was unsure about
                             conducting structured on-the-job training. The instructor
                             indicated she would have liked to role-play during her own
                             training, in order to receive feedback on how to perform
                             role-playing and grade the trainees. As a result, the
                             instructor did not use the Integrated Retail Terminal and
                             allowed the trainee to refer to the training manual while role-
                             playing.

                             At Location C, the instructor and trainees offered several
                             potential ideas for improving the program. The on-the-job
                             instructor stated that timelines for the structured on-the-job
                             training modules should be created. Also, both trainees
                             stated they would like to have had more practice using the
                             Integrated Retail Terminal prior to structured on-the-job
                             training, in order to feel more comfortable working at the
                             window.

Suggestions                  The Vice President, Retail, should:

                             2.	 Monitor future training to ensure that the length and
                                 content of the new training course is followed and that
                                 classroom and on-the-job instructors understand the
                                 importance of adhering to timelines.

Management's                 Management agreed with the suggestion. The
Comments                     establishment of validated timelines has been implemented
                             and will be included in certification training for all classroom
                             and on-the-job instructors. Retail management also agrees
                             that ongoing monitoring of adherence to the entire
                             administration of this program is important and has
                             incorporated a continuous review of training evaluation data
                             into the process of training development.




                                                 10
                                       Restricted Information
Review of the Revamped Sales and                                                    RG-MA-99-006
 Services Associate Training Program


                             3.	 Require structured on-the-job training be performed at
                                 the new clerk’s post office if an instructor is available at
                                 that location.

Management's                 Management agreed with the suggestion and informed OIG
Comments                     that they have included it in the Management Instruction
                             and the Administrator's Guide for the course.

                             4.   Include more role-playing activities in training for on-the-
                                  job instructors to ensure greater use of this technique.

Management's                 Management agreed with the suggestion. As a result of a
Comments                     conference in Norman, Oklahoma that brought together key
                             members of the program, adjustments and enhancements
                             were made to the classroom and on-the-job segments to
                             better meet the needs of future students and instructors.
                             Also, additional role-playing scenarios have been
                             incorporated into the classroom segment.

Evaluation of                The implemented actions by management satisfy the intent
Management's                 of these OIG suggestions. The creation of the Management
Comments                     Instruction and Administrator's Guide further enhances the
                             implementation of these suggestions.




                                                 11
                                       Restricted Information
Review of the Revamped Sales and                                                RG-MA-99-006
 Services Associate Training Program



Reference Materials          Reference materials provided at the four pilot training
                             locations were inconsistent, causing confusion among
                             students and the receipt of incomplete and incorrect
                             information.

                             When the Point-of-Service ONE system is fully deployed, it
                             will provide improved and timely information about available
                             services and immediate access to all Postal options and
                             costs. However, until Point-of-Service ONE is implemented
                             nationwide, the Postal Service must make extra efforts to
                             ensure that staff is provided with the most current
                             information as quickly as possible. Listed below are
                             situations in which reference materials are available within
                             the Postal Service but not distributed or shared.

                             At Locations B, C, and D, the OIG observed that trainees
                             did not receive keyboard diagram reference cards for the
                             keyboards used with the Integrated Retail Terminals. At
                             Location B, to compensate for the omission of this reference
                             material, an instructor unsuccessfully attempted to
                             photograph the keyboard; Location C used a photocopy of a
                             keyboard diagram that contained little explanatory
                             information; and Location D took approximately 45 minutes
                             of classroom time to explain the function of each key.
                             However, through our review, we discovered that a UNISYS
                             guidebook at Location C contains several keyboard
                             diagrams and explanations for the functions of the keys,
                             which could be made available program wide.

                             Additional examples where information was omitted are as
                             follows. Location B did not have the video required for
                             Module 6 of classroom training. Also, during our visits to
                             Locations B, C, and D, trainees did not receive phone card
                             quick-reference cards. The reference cards outline the
                             procedures for selling the phone card, the current rates
                             available, and customer service information. Additionally,
                             clerks were not provided a listing of area bulk mail center
                             locations to use as a reference when working at the window.

                             Several locations had outdated reference materials.
                             Locations A and C had outdated forms and Locations A
                             and D had outdated manuals, some of which were two
                             previous issues old. At Location C, an on-the-job instructor
                             said that it was not always easy to keep up with the updates



                                                 12
                                       Restricted Information
Review of the Revamped Sales and                                                  RG-MA-99-006
 Services Associate Training Program


                             provided in the Postal Bulletin. The Postal Bulletin is
                             published biweekly and is the key venue the Postal Service
                             uses to inform USPS employees on Postal issues and
                             manual updates.

                             In comparing the old training manual to the new, we noted
                             that it contains additional examples of USPS forms,
                             products, and services. At Location C, because detailed
                             reference materials were excluded from the revised training
                             manuals, the instructors who taught the on-the-job
                             instructors needed to use class time to find essential
                             training materials. For example, the new manual, PO-130
                             Postal Products and Services, which was distributed in
                             October 1998 was not provided to all trainees of the pilot
                             training program. This manual is an effective reference tool
                             that clerks can use at the window, in conjunction with the
                             revised training manual, to improve customer service.

Management’s                 In June 1999 classroom and on-the-job instructors at four
Corrective Action            locations, Retail and Corporate Employee Development
                             representatives, and a union representative gathered in
                             Norman, Oklahoma to discuss their impressions and
                             concerns and proposed revisions to improve the training
                             program. Participants reviewed and assessed all the
                             reference materials used at the pilot locations and agreed
                             on materials that would be consistently distributed to all
                             locations in the future.

                             Representatives from Location D did not attend, nor submit
                             comments concerning their assessment of the new pilot.
                             Management at this location thought that because the
                             instructors had limited experience implementing the
                             revamped training program, the instructors would not be
                             able to provide an effective assessment of the program.

                             In addition to the revisions discussed above, the Vice
                             President, Retail:

                             •	 recommended that the Retail Workforce Strategies Team
                                create and distribute a template that lists area bulk mail
                                centers to new retail clerks;
                             •	 directed the team to work with the Postal Bulletin staff to
                                redesign the Retail section to facilitate identification and
                                location of updated retail reference information by clerks;
                                and


                                                 13
                                       Restricted Information
Review of the Revamped Sales and                                                  RG-MA-99-006
 Services Associate Training Program


                             •	 advised that her staff is trying to get the USPS web page
                                address for retail listed on each page of the training
                                materials, for the retail clerks to be able to obtain
                                reference materials updates on-line.

Trainee Suggestions          One trainee at Location C suggested several informal ideas
                             that Retail management should evaluate. These
                             suggestions include: providing each on-the-job instructor
                             with a trainee badge to issue to their trainee for the week of
                             structured on-the-job training, issuing a flowchart of services
                             that can and cannot be combined, revising the reference
                             sheet of the most frequently used account identifier codes
                             and corresponding definitions, developing a list of 10-15 of
                             the most frequently used form numbers with an
                             accompanying explanation of what forms are used for, and
                             providing this information before the trainees attend
                             classroom training.

Suggestions 	                The Vice President, Retail, should:

                             5. Provide each training location with the approved training
                                materials and distribute keyboard diagrams with
                                explanations of functions.

Management's	                Management agreed with the suggestion and informed OIG
Comments 	                   that the revised Administrator's Guide lists the training aids
                             needed to successfully conduct the classroom sessions.
                             The guide also lists instructions for ordering training aids.

Evaluation of                Actions implemented by Retail management satisfy the 

Management's                 intent of the suggestion.

Comments 


                             6. Incorporate some of the helpful forms, products, and
                                services found in the pre-revised training materials into
                                the revised training manual or the PO-130.

Management's	                Management agreed with the suggestion and informed OIG
Comments 	                   that a list of useful learning aids was compiled, including the
                             PO-130 and stated these are specifically referenced in
                             course materials.




                                                 14
                                       Restricted Information
Review of the Revamped Sales and                                               RG-MA-99-006
 Services Associate Training Program


Evaluation of                Actions implemented by Retail management satisfy the 

Management's                 intent of the suggestion.

Comments 


                             7. Obtain comments from structured on-the-job and
                                classroom training representatives at Location D for a
                                more thorough assessment of the variations within the
                                program.

Management's                 Management agreed with the suggestion and stated that
Comments                     this was accomplished during the conference in
                             Norman, Oklahoma.

Evaluation of                Actions implemented and underway by Retail management 

Management's                 satisfy the intent of the suggestion. 

Comments 





                                                 15
                                       Restricted Information
Review of the Revamped Sales and                                                  RG-MA-99-006
 Services Associate Training Program



Uniform and                  The Postal Service’s ability to establish a consistent
Professional Image           branding with the public is limited by the lack of a uniform,
                             professional image at three of the four locations visited.

                             During our review, we examined professionalism and
                             uniformity because personal experiences in Postal lobbies
                             are a major influence on public perception of the value and
                             effectiveness of the Postal Service. Marketing management
                             emphasized the importance of presenting a professional,
                             uniform image for the USPS to remain competitive.

                             Trainees were generally friendly with customers at all
                             structured on-the-job training sites visited. At Location D,
                             classroom instructors, on-the-job instructors, and trainees
                             were dressed in the current Postal uniforms, as were the
                             on-the-job instructors at Location A. At Location A, the
                             trainees were not in Postal uniform for structured on-the-job
                             training, however, they wore professional attire.

                             In contrast, the instructor at Location B who stressed the
                             importance of wearing the current Postal uniform was not in
                             uniform himself. Similarly, one on-the-job instructor at
                             Location C was not in uniform. Another on-the-job instructor
                             was in uniform one day, but wore a shirt that bore the old
                             USPS logo on another day. At Location C, the trainees
                             were not in uniform and not in appropriate attire for working
                             at the window. Also, at Locations A and C, buildings and
                             materials displayed the old Postal Service logo.

Suggestions 	                The Vice President, Retail, should:

                             8.	 Improve efforts to ensure that instructors have a clear
                                 understanding of the importance of presenting a
                                 professional image to trainees at all times and that all
                                 instructors and retail clerk trainees wear the current
                                 Postal uniforms.

Management's	                Management agreed with the suggestion and stated that as
Comments 	                   a result of this suggestion, master instructors from every
                             district will receive focused training on image at national
                             training in October.




                                                 16
                                       Restricted Information
Review of the Revamped Sales and                                                    RG-MA-99-006
 Services Associate Training Program


Evaluation of                Efforts underway by Retail management satisfy the intent of

Management's                 the OIG suggestion.

Comments 


                             9.   Continue efforts to remodel outdated post offices to
                                  ensure a consistent branding of the USPS.

Management's                 Management stated that the suggestion is outside the scope
Comments                     of this training program and beyond the responsibility of this
                             program's intended audience.

Evaluation of                While this is suggestion outside the scope of the training
Management's                 program, we believe, retail clerks should be aware of how
Comments                     the conditions of a postal facility may impact customer
                             service and loyalty. However, we will consider this area in
                             future audit plans.

                             10. Implement professional attire requirements for all sales
                                 and service associates.

Management's                 Management informed OIG that currently, revisions to the
Comments                     Employee Labor Manual that are in the process of being
                             adapted will identify the standards for non-uniformed
                             employees. Additionally, they informed OIG that specific
                             requirements are documented in an employee uniform
                             brochure and Postal Bulletin.

Evaluation of                Management's comments satisfy the intent of the
Management's                 suggestion that was revised as a result of the exit briefing
Comments                     with Retail management on September 14, 1999.

                             11. Include position descriptions for retail clerks in the front
                                 of the classroom training manuals to reinforce position
                                 and attire requirements.

Management's                 Management stated that position descriptions for Sales and
Comments                     Services Associates have been included in the classroom
                             training materials.

Evaluation of                The implemented action by Retail management satisfies the 

Management's                 intent of the OIG suggestion. 

Comments 





                                                 17
                                       Restricted Information
Review of the Revamped Sales and                                                  RG-MA-99-006
 Services Associate Training Program



Knowledge of USPS            The knowledge of USPS products and services
Products And                 demonstrated by training instructors at three locations was
Services                     at times incomplete or incorrect, resulting in students
                             receiving some misinformation.

                             We observed that experienced clerks who conducted the
                             training were not knowledgeable in some areas, as
                             illustrated in the following examples. At Location B, Delivery
                             Confirmation was inaccurately described as a tracking
                             system that enables the Postal Service to track the location
                             of packages when in transit. Students were inaccurately
                             told that the Postal Service finally has the same service as
                             the competition. Furthermore, instructors did not explain the
                             discounts or costs of Delivery Confirmation and did not
                             distribute written guidance.

                             At Location B, when a student asked if statistics comparing
                             Express Mail to competing services were available, the
                             instructors stated that they did not have the statistics readily
                             accessible. At this same location, in response to a trainee’s
                             inquiry, an instructor stated that the USPS could not
                             advertise its acceptance of credit cards. However, recent
                             commercials and other advertisements promote this feature.
                             Also at Location B, an instructor responded to a trainee’s
                             question concerning the usage rates of credit and debit
                             cards by Postal Service customers by stating that there are
                             statistics somewhere, but he had no idea where. The
                             instructors made no effort to obtain the information. At
                             Location D, students and instructors were confused about
                             activating phone cards with purchase amounts. The
                             instructors made no effort to research correct information in
                             order to provide an explanation. At Location C, clerks were
                             unaware of discounts for three or more certificates of
                             mailing because the Domestic Mail Manual did not contain
                             this information.

                             In contrast, at Location B, instructors effectively explained
                             the advantages of Express Mail when compared to products
                             and services of USPS competitors. At Locations A, B,
                             and D, on-the-job instructors emphasized the importance of
                             asking if customers want to pay using a credit or debit card.
                             Credit or debit card usage reduces transaction costs and
                             increases customer convenience.




                                                 18
                                       Restricted Information
Review of the Revamped Sales and                                                 RG-MA-99-006
 Services Associate Training Program


                             Also, USPS market research indicates that customers do
                             not fully understand USPS products and services. For
                             example, a recent study illustrates that only 20 percent of
                             customers know the difference between certified and
                             registered mail. Additionally, insight gained by Retail
                             management through benchmarking against the private
                             sector revealed that continuous education for clerks through
                             refresher courses is beneficial.

                             It is essential that clerks have a clear and current
                             understanding of products and services available, in order
                             to better inform customers. Having this understanding will
                             enable clerks to suggest products and services that best
                             satisfy customer needs.

Suggestions                  The Vice President, Retail, should:

                             12. Provide instructors with statistical information about
                                 customers’ limited knowledge of Postal products and
                                 services, such as registered versus certified mail, and
                                 encourage instructors to share with trainees.

Management's                 Management informed OIG of the complexity of Postal
Comments                     Service products and services and the confusion it causes
                             customers. Management also stated that rather than rely
                             on whether or not instructors believe customers have limited
                             knowledge that management addressed the issue through
                             course design. They stated classroom and on-the-job
                             segments stress the expectation for associates to inquire
                             about customers mailing needs and to suggest products or
                             services that best meet those needs.

Evaluation of                Actions implemented and underway by Retail management
Management's                 satisfy the intent of the suggestion.
Comments
                             OIG fully understands management's efforts to address this
                             issue through course design. However, the purpose of this
                             suggestion was to ensure that instructors and trainees are
                             provided with market research, which was provided to OIG,
                             that illustrates customers' lack of understanding of Postal
                             Service products and services. Without an understanding of
                             the extent of the public's limited knowledge of those
                             products and services, sales and services associates may
                             not be fully aware of the importance of explaining suggested
                             products or services to customers.



                                                 19
                                       Restricted Information
Review of the Revamped Sales and                                                   RG-MA-99-006
 Services Associate Training Program


                             13. Design a supplemental training course, an overview of
                                 basic required knowledge for Postal retail clerks, to be
                                 used as a follow-up for continuous education.

Management's                 Management stated that because the course is designed to
Comments                     be flexible and is conducive as a refresher training course,
                             lesson plans can be delivered to any clerk as needed and
                             without modification. However, management additionally
                             informed OIG that they believe that ongoing training for
                             clerks is critical to improving proficiency and is identified in
                             their five year retail training plan. Management also stated
                             that there are currently a number of initiatives under
                             development and review that will provide refresher
                             information, updates, and continuous education.

Evaluation of                Actions implemented and underway by Retail management 

Management's                 satisfy the intent of the suggestion. 

Comments 


                             14. clarify to instructors and retail clerks that Delivery
                                 Confirmation provides proof of delivery but does not yet
                                 track the location of packages in transit.

Management's	                Management agreed with the suggestion and stated that
Comments 	                   although they do not believe that this misunderstanding is
                             widespread, they will reinforce this feature during the
                             national master instructor training.

Evaluation of                Efforts underway by Retail management satisfy the intent of

Management's                 the OIG suggestion.

Comments 


                             15.	 Coordinate with Tactical Marketing to create
                                  informational tools that compare Postal Service
                                  products such as Priority, Express, and Global Priority
                                  Mail to the competition, enabling retail clerks to better
                                  educate themselves and customers.

Management's                 Management agreed with the suggestion and stated that
Comments                     they have adapted the suggestion by incorporating this type
                             of information in the classroom Facilitator's Guide.




                                                 20
                                       Restricted Information
Review of the Revamped Sales and                                               RG-MA-99-006
 Services Associate Training Program


Evaluation of                Efforts underway by Retail management satisfy the intent of
Management's                 the OIG suggestion
Comments




                                                 21
                                       Restricted Information
Review of the Revamped Sales and                                                 RG-MA-99-006
 Services Associate Training Program



Management and               The overall management and control of training at all
Control of Training          locations was not always effective, resulting in trainees
                             acquiring insufficient knowledge about how to perform their
                             duties.

                             The Postal Service has made a substantial investment in
                             significantly changing the retail environment, in order to
                             mirror successful business practices and improve its ability
                             to compete. To assist retail clerks in satisfying customer
                             needs, the Postal Service developed the customer service
                             initiative GIST, which consists of greeting (G) each
                             customer, inquiring (I) as to the customer’s needs,
                             suggesting (S) items or services that best satisfy those
                             needs, then thanking (T) the customer after completing the
                             sale. The objective of suggestive selling and satisfaction
                             selling of Postal Service products and services is to improve
                             customer satisfaction and increase revenue generated per
                             employee. Teaching and implementing this selling
                             technique must be consistent to ensure that clerks are
                             proficient in determining customer needs and offering
                             products and services that best satisfy those needs.

                             The instructors observed by the OIG attained varying levels
                             of success in communicating the importance of GIST,
                             implementing it, and explaining procedures of suggestive
                             selling and satisfaction selling. At Location B, the
                             instructors successfully integrated the GIST concept
                             throughout the classroom training. At Location A, an on-
                             the-job instructor successfully intermingled the concept by
                             explaining to a trainee the techniques for suggesting other
                             products and upgrading a sale. At Location D, the on-the-
                             job instructor assisted the trainee with suggesting alternate
                             products to customers, then explaining the suggestions to
                             the trainee after customers had left. At Locations A, B, and
                             D, the instructors stressed providing friendly, helpful
                             customer service consistent with the service technique
                             GIST.

                             By listening to their customers, instructors emphasized that
                             the trainees could then use this knowledge to serve other
                             customers more effectively. These examples clearly
                             demonstrate the effective accomplishment of some of the
                             goals of the revamped training program.




                                                 22
                                       Restricted Information
Review of the Revamped Sales and                                                 RG-MA-99-006
 Services Associate Training Program



                             However, several instructors and trainees achieved less
                             success in teaching and implementing GIST. At Location C,
                             an instructor stated she was uncomfortable with “upselling”
                             because customers often want to use the least expensive
                             method for sending packages. Her trainee did not attempt
                             to upgrade the mailing of an international package by
                             offering services such as Global Priority or International
                             Express. At the same location, another instructor and
                             trainee did not consistently ask customers if they wanted to
                             pay electronically because they stated they were
                             uncomfortable doing so. Additionally, at Location B, the
                             instructors advised the trainees to overestimate delivery
                             times for packages just to be safe, which may create the
                             misperception that competitors deliver packages more
                             expediently than the Postal Service.

                             The Facilitators Guide for Revised Job Instructor Training
                             defines what constitutes constructive feedback and stresses
                             that the importance of this feedback cannot be
                             overemphasized. At Locations A and D, the instructors
                             carefully walked trainees through transactions they had not
                             previously performed. Instructors at Location A transitioned
                             from helping the trainees to perform transactions to allowing
                             them to work independently. These instructors also asked
                             thought-provoking questions and provided helpful
                             suggestions to trainees for loss prevention. At Locations A
                             and C, the instructors reviewed many transactions after
                             customers left, providing reinforcement training to the
                             trainees. Also, at Location C, the instructor provided
                             constructive feedback by correcting a trainee when he made
                             an insensitive statement about determining the value of a
                             customer’s package. During the training process, trainees
                             at three pilot locations were encouraged to and asked
                             questions.

                             Conversely, instructors also missed opportunities to offer
                             constructive feedback and provide a comfortable training
                             environment. At Locations A, C, and D, the on-the-job
                             instructors did not correct the trainees when they did not ask
                             customers the required questions for determining customer
                             needs. At Location D, a trainee was extremely rude to
                             instructors and other classmates. The instructors neglected




                                                 23
                                       Restricted Information
Review of the Revamped Sales and                                                  RG-MA-99-006
 Services Associate Training Program


                             to address this behavior. At Location C, a trainee gave a
                             guarantee on the delivery of a Priority Mail package, and the
                             on-the-job instructor was not present to provide guidance
                             and correct the trainee.

                             A constructive learning environment includes providing
                             trainees with clear, concise instruction. At Locations B,
                             instructors emphasized the importance of measuring and
                             weighing packages correctly; an area of revenue loss when
                             clerks charge incorrect amounts. At Location A, on-the-job
                             instructors provided explanations for the procedures to
                             verify debit and credit sales for the day.

                             However, instructors failed to provide clear, concise
                             instruction on several occasions. At Locations B and D, the
                             classroom instructors frequently used acronyms that were
                             not defined in the class or in the training manuals and did
                             not refer to the handbooks for reference purposes,
                             confusing students who were not familiar with the Postal
                             Service. At the same locations, these instructors selectively
                             used the module exercises, providing incomplete training.
                             Additionally, at Location B, the instructors failed to explain
                             the roles of mystery shoppers and close-out persons,
                             assuming that students knew this information.

                             Classroom instructors working as a team facilitate
                             presenting program information to trainees. At Location B,
                             the classroom instructors created a synergy that made for a
                             more enriching experience by assisting one another with
                             current Postal regulations and providing real-life stories that
                             reinforced the lessons taught. In contrast, at Location D,
                             the classroom instructors failed to work together when
                             instructing a large class of trainees. At this location, only
                             one instructor was present in the classroom during
                             instruction.

                             One of the objectives of the training program is to ensure
                             that students are comfortable interacting with their
                             instructors. At Location B, the classroom instructors
                             displayed mannerisms that trainees may interpret as
                             intimidating by responding to trainees’ questions
                             sarcastically. Such behavior may cause trainees to refrain
                             from participating in discussions and asking questions.




                                                 24
                                       Restricted Information
Review of the Revamped Sales and                                                  RG-MA-99-006
 Services Associate Training Program


                             The conduct of the instructors will influence the perception
                             trainees have of acceptable behavior in the Postal Service.
                             At Location B, instructors spoke positively of the retail clerk
                             position by describing it as a rewarding opportunity.
                             However, at the same location, the instructors engaged in
                             some irreverent and condescending behavior. At
                             Location C, one of the instructors arrived late and left early,
                             resulting in the trainee’s inability to complete the training
                             modules. Furthermore, some of the experienced clerks and
                             an on-the-job instructor ate at the window while other clerks
                             served customers.

                             Instructors held several perceptions and misperceptions that
                             influenced the quality of training and customer service.
                             Specifically, at Location A, an on-the-job instructor
                             perceived that the training course designers lacked
                             knowledge about the retail clerk position. At Location C,
                             one of the on-the-job instructors stated that she would feel
                             silly implementing role-playing. A trainee at this location
                             only sporadically asked all the required questions because
                             asking the questions made her feel uncomfortable.

                             We observed that Point-of-Service ONE training was not
                             incorporated into classroom and structured on-the-job
                             instruction in districts where Point-of-Service ONE has been
                             deployed. At Location A, trainees who would not be using
                             Point-of-Service ONE for some time were trained on the
                             Integrated Retail Terminal. In contrast, at Location C, a
                             trainee who would soon be using Point-of-Service ONE was
                             trained for the Integrated Retail Terminal at two different
                             stations. Some trainees at Locations C and D and half of
                             the class at Location B were trained on the Integrated Retail
                             Terminals when they would be using Point-of-Service ONE
                             systems at their stations. By instructing the trainee on the
                             Integrated Retail Terminal, the trainee could not perform the
                             structured on-the-job training lessons that pertain to Point-
                             of-Service ONE.

Suggestions                  The Vice President, Retail, should:

                             16.	 Accentuate that instructors understand the importance
                                  of how to perform satisfaction selling of products and
                                  services; provide accurate estimates of delivery times
                                  and packages; provide constructive feedback and
                                  clear, concise instruction to trainees; work as a team to



                                                 25
                                       Restricted Information
Review of the Revamped Sales and                                                RG-MA-99-006
 Services Associate Training Program


                                   create a comfortable learning environment; and
                                   conduct themselves in a professional manner and
                                   model the desired behaviors for window clerks.

Management's                 Management agreed with the suggestion, stating that a
Comments                     significant change in this revised course is the requirement
                             that all instructors be certified. Management also stated
                             that these courses have been tailored for this program to
                             include many retail performance issues, including those
                             listed in the suggestion.

                             17. Summarize the history and expertise behind the course
                                 development in the front section of the classroom
                                 manual.

Management's                 Management agreed with the suggestion. As a result of the
Comments                     exit briefing on September 14, 1999, and confirmed in their
                             management comments, Retail management will include in
                             the preface of the classroom course credit given to sales
                             and services associates, trainers, and Postmasters for
                             developing the material. Management also stated that they
                             embrace the value of trainees knowing that this quality
                             training was produced by their peers.

                             18. Incorporate Point-of-Service ONE training into the
                                 classroom and structured on-the-job instruction for
                                 trainees who will use Point-of-Service ONE at their
                                 stations.

Management's                 Management agreed with the suggestion and will continue
Comments                     to monitor this instructional design feature.

Evaluation of                The efforts underway by Retail management satisfy the 

Management's                 intent of these suggestions. 

Comments 





                                                 26
                                       Restricted Information
Review of the Revamped Sales and                                             RG-MA-99-006
 Services Associate Training Program


                             We appreciated the cooperation and courtesies provided by
                             your staff during the review. If you have any questions,
                             please contact me at (703) 248-2300.



                             Sylvia L. Owens
                             Assistant Inspector General
                              for Revenue and Cost Containment

                             cc: Allen R. Kane
                                 John R. Gunnels
                                 Alan B. Kiel
                                 Nancy M. Laich
                                 Deborah L. Whetzel
                                 Nancy James
                                 William A. Stefl




                                                 27
                                       Restricted Information
Review of the Revamped Sales and                                RG-MA-99-006
 Services Associate Training Program




                                                28                  Appendix
                                       Restricted Information
Review of the Revamped Sales and                                RG-MA-99-006
 Services Associate Training Program




                                                29                  Appendix
                                       Restricted Information
Review of the Revamped Sales and                                RG-MA-99-006
 Services Associate Training Program




                                                30                  Appendix
                                       Restricted Information
Review of the Revamped Sales and                                RG-MA-99-006
 Services Associate Training Program




                                                31                  Appendix
                                       Restricted Information
Review of the Revamped Sales and                                RG-MA-99-006
 Services Associate Training Program




                                                32                  Appendix
                                       Restricted Information
Review of the Revamped Sales and                                RG-MA-99-006
 Services Associate Training Program




                                                33                  Appendix
                                       Restricted Information
Review of the Revamped Sales and                                RG-MA-99-006
 Services Associate Training Program




 Major Contributors to
 This Report




                                                 34                 Appendix
                                       Restricted Information
